CERT1RCA7E OF SERVICE

I, Alan Hicks, petitioner herein, do swear or declare that on this date, September
,
2020, as required by Supreme Court Rule 29. I have served the enclosed Motion For Leave To
Proceed In Forma Pauperis and Petition for Writ of Certiorari on each party to the above
proceeding or that party's counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United States mail properly
addresses to each of them and with first-class postage prepaid, contemporaneously with this
filing.
Benjamin F. Yancey, III
Assistant Attorney General
Office of the Attorney General
Appellate Division
812 Quarrier Street, 6th Floor
Charleston, W.Va 25301
Telephone: (304) 558-5830
Joseph Reeder
Judge, 29th Judicial Circuit
Putnam County Judicial Building
12093 Winfield Road
Winfield, W.Va 25213
Telephone: (304) 586-0262
I declare under penalty of perjury that the forgoing is true and correct.
Executed on September^*?. 2020.

Respectfully submitted,

Alan Lane Hicks
Mt. Olive Correctional Complex
One Mountainside Way Box 5
Mt. Olive, W.Va 25185
Phone# 304-442-7213 Mainline
Petitioner, pro se

